No.

IN THE
SUPREME COURT OF THE UNITED STATES

KENAN IVERY — PETITIONER, pro se
vs.
STATE OF OHIO — RESPONDENT
PROOF OF SERVICE
2021, as
I, Kenan Ivery, do swear or declare that on this date, 'Sjh*required by Supreme Court Rule 29, I have served the enclosed MOTION FOR
LEAVE TO PROCEED IN FORMA PAUPERIS and PETITION FOR A WRIT OF
CERTIORARI on each party to the above proceeding or that party’s counsel, and on
every other person required to be served, by depositing an envelope containing the
above documents in the United States mail properly addressed to each of them and
with first-class postage prepaid, or by delivery to a third-party commercial carrier for
delivery within 3 calendar days.
The names and addresses of those served are as follows:
Ohio Attorney General, 150 East Gay Street, 16th Floor, Columbus, Ohio 43215.
I declare under penalty of perjury that the foregoing is true and correct.
Executed on

15*

2021.

nv-'v?
Kenan Ivery, #A674-145'

